Office of Material Loss Reviews
Report No. MLR-10-016


Material Loss Review of Millennium State
Bank of Texas, Dallas, Texas




                                  January 2010
                                      Executive Summary

                                      Material Loss Review of Millennium State Bank
                                      of Texas, Dallas, Texas
                                                                                       Report No. MLR-10-016
                                                                                                January 2010

Why We Did The Audit
The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a material
loss review of Millennium State Bank of Texas (MSB), Dallas, Texas.

On July 2, 2009, the Texas Department of Banking (TDB) closed MSB and named the FDIC as receiver.
On July 22, 2009, the FDIC notified the OIG that MSB’s total assets at closing were $121.4 million and
the estimated loss to the Deposit Insurance Fund (DIF) was $46.9 million. The OIG was required by
section 38(k) of the Federal Deposit Insurance (FDI) Act to conduct a material loss review of the failure
of MSB, and retained KPMG for this purpose.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
MSB was a state-chartered, nonmember bank that was insured by the FDIC on August 20, 2003. MSB
was headquartered in Dallas, Texas, with a branch office in Houston, Texas. The bank had no holding
company, subsidiaries, or affiliates.

MSB pursued a lending strategy focused on funding small businesses, mostly utilizing Small Business
Administration (SBA) loans where the SBA either guaranteed the loans or subordinated its interest in the
real estate collateral. Specific commercial real estate (CRE) industry concentrations included loans
collateralized by hotels, convenience stores, and car washes. To fund portfolio growth, the bank relied
upon the issuance of certificates of deposit (CDs). The primary source of earnings for MSB was from
gains on the sale of the guaranteed portions of the SBA loans.

Audit Results
Causes of Failure and Material Loss

MSB’s failure can be attributed to inadequate management and Board oversight, an aggressive growth
strategy centered in CRE lending, weak loan underwriting and credit administration, poor earnings, and
an inadequate funding strategy. Throughout its history, the FDIC and TDB repeatedly criticized MSB’s
management practices and strategy. In their final Report of Examination, the regulators attributed the
bank’s extremely weakened condition to: (1) a flawed, original business plan that was not sufficiently
adjusted through time to the bank’s risk profile, (2) an inexperienced Board, and (3) the inability of the
Board to administer the bank’s affairs at critical points. In May 2009, examiners specifically noted that
the strategy of using high-cost CDs sourced from the Internet to fund SBA loans in high-risk sectors
resulted in unacceptable risk. In addition, examiners noted that lending practices included loans to
businesses in which the principals had limited experience, and the underwriting was based on high cash
flow projections or adjustments to historical cash flows. Examiners also noted that MSB’s strategy of
using high-cost CDs sourced from the Internet to fund high-risk SBA loans resulted in unacceptable risk.
In comparison with the bank’s peer group, MSB’s level of CRE concentrations was high, making it
vulnerable to any downturn in the CRE market. Efforts by the Board to diversify the loan portfolio from
specific industry concentrations, however, were unsuccessful.



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of Millennium State Bank
                                     of Texas, Dallas, Texas
                                                                                     Report No. MLR-10-016
                                                                                              January 2010

The FDIC’s Supervision of MSB

Throughout its supervision of MSB, the FDIC identified key risks in MSB’s management practices and
operations and brought these risks to the attention of the institution’s Board and management through
regular discussions and correspondence, examination reports, and visitations. Key risks identified by
examiners included inadequate Board and management oversight, weak risk management practices
pertaining to the institution’s rapid loan growth and significant loan concentrations, poor loan
underwriting and credit administration practices, and reliance on high-cost funding sources. The FDIC
and TDB conducted three separate visitations beginning as early as March 2004 and seven on-site
examinations beginning in August 2004.

To encourage improvements in MSB’s operations, the FDIC relied principally on examiner suggestions to
address identified risks and did not impose any informal or formal enforcement actions until December
2007. Based on the FDIC and state observations at each examination, in retrospect, a stronger
supervisory response at earlier examinations may have been prudent in light of the nature and extent of
the risks and the institution’s lack of adequate or timely corrective action. Stronger supervisory action
early in the institution’s formative years may have influenced MSB’s Board and management to limit the
significant level of risk assumed during the institution’s rapid growth period. It may also have established
a more appropriate supervisory tone and prompted the Board and management to take more timely and
adequate action to address examiner concerns, thereby mitigating, to some extent, the losses incurred by
the DIF.

Based on the supervisory actions taken, the FDIC properly implemented applicable PCA provisions of
section 38. However, capital levels turned out to be a lagging indicator of the institution’s financial
condition.

Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On January 15, 2010, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report. That response is provided in
its entirety on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of MSB’s failure and the FDIC’s supervision
of the bank. DSC stated that the failure of MSB demonstrates why stringent supervisory attention is
necessary for de novo institutions. DSC has extended its supervisory program so that these institutions
receive a full-scope examination every year for 7 years, as opposed to 3 years. De novo business plans
are being closely monitored against approved financial projections throughout the 7-year period. A
Financial Institution Letter issued in August 2009 describes the program changes for de novo institutions
and warns that changes in business plans undertaken without required prior notice may subject an
institution or its insiders to civil money penalties.




                                 To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General




DATE:                                     January 22, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Millennium State Bank of Texas,
                                          Dallas, Texas (Report No. MLR-10-016)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response on January 15, 2010. We incorporated the
information into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Mike
Lombardi, Audit Manager, at (703) 562-6328. We appreciate the courtesies extended to the
audit staff.

Attachment

cc: Thomas J. Dujenski, Regional Director, DSC
    Christopher E. Drown, Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
                           Table of Contents

Part I

   Report by KPMG LLP                                      I-1
   Material Loss Review, Millennium State Bank of Texas,
   Dallas, Texas

Part II

   OIG Evaluation of Management Response                   II-1

   Corporation Comments                                    II-2
      Part I

Report by KPMG LLP
              Material Loss Review
         Millennium State Bank of Texas
                  Dallas, Texas




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General




KPMG LLP
2001 M Street, NW
Washington, DC 20036
                                 Contents

Executive Summary                                                       I-3

Background                                                              I-5

Causes of Failure and Material Loss                                      I-6
  Management and Board Oversight                                         I-6
    Deviation from Business Plan                                         I-6
    General Oversight                                                    I-7
    Violations of Regulatory Requirements                                I-8
  Growth Strategy Centered in CRE Lending                                I-9
  Loan Underwriting and Credit Administration                          I-10
  Funding and Earnings Strategies                                      I-11

The FDIC’S Supervision of MSB                                          I-13
  Supervisory History                                                  I-13
  Supervisory Response to Key Risks                                    I-15
  Supervisory Concern Related to MSB’s Board and Management            I-16
  Supervisory Concern Related to CRE Concentrations and Underwriting   I-18
  Implementation of PCA                                                I-20

Appendices                                                             I-22
 1. Objectives, Scope and Methodology                                  I-22
 2. Glossary of Terms                                                  I-25
 3. Acronyms                                                           I-27

Tables
 1. Financial Condition of MSB                                           I-6
 2. MSB’s CRE Concentration Relative to Peers                            I-9
 3. On-Site Examinations, Visitations and Actions                      I-14
 4. Supervisory Concerns Related to MSB’s Board and Management         I-16
 5. MSB’s PCA Capitalization Categories                                I-20

Figures
  1. Projected Versus Actual Asset Growth                                I-7
  2. Comparison of Time Deposits versus Total Deposits for MSB         I-12




                                    I-2
                            KPMG LLP

                            2001 M Street, NW
                            Washington, DC 20036




January 22, 2010


Executive Summary

Stephen M. Beard
Assistant Inspector General for Material Loss Reviews
Federal Deposit Insurance Corporation
3501 North Fairfax Drive
Arlington, VA 22226

RE:    Transmittal of Results for the Material Loss Review Report for Millennium
       State Bank of Texas, Dallas, Texas

Dear Mr. Beard:

This letter is to acknowledge delivery of our performance audit report on the results of
the Material Loss Review for Millennium State Bank of Texas (MSB), Dallas, Texas in
accordance with Task Assignment Number 09-10 dated 08/22/2009. The objectives of
this performance audit were to: (1) determine the causes of MSB’s failure and resulting
material loss to the Deposit Insurance Fund (DIF) and (2) evaluate the FDIC’s
supervision of MSB, including the FDIC’s implementation of the Prompt Corrective
Action (PCA) provisions of section 38.
Performance Audit Results
MSB’s failure can be attributed to inadequate management and Board of Directors
(Board) oversight, an aggressive growth strategy centered in Small Business
Administration (SBA) loans collateralized by Commercial Real Estate (CRE), weak loan
underwriting and credit administration, poor earnings and an inadequate funding strategy.
The institution had rapid growth in loans to businesses in which the principals had limited
industry experience. Underwriting was based upon unrealistic reliance on historical cash
flows to justify overly optimistic projections. These factors led to an over exposure to
high risk loans secured by CRE. In comparison with the bank’s peer group, which
consisted of banks with assets between $100 million and $300 million, MSB’s CRE
concentration was high, which made the bank vulnerable to downturns in local economic
conditions. Efforts by the bank’s Board and management to diversify the loan portfolio
from specific industry concentrations were unsuccessful. Moreover, the use of high-cost
Certificates of Deposit (CD) sourced from the Internet to fund SBA loans resulted in high
risk for the institution.
In discussions and correspondence with MSB’s Board and management, Reports of
Examination (ROE), and visitations the FDIC noted concerns about the risk profile of the
bank. Key risks identified by examiners included inadequate Board and management


                                                              I-3
                             KPMG LLP, a U.S. limited liability partnership, is the U.S.
                             member firm of KPMG International, a Swiss cooperative.
oversight, weak risk management practices pertaining to the institution’s rapid loan
growth, poor loan underwriting and credit administration practices, and reliance on high
cost funding sources. Regulators conducted three separate visitations beginning as early
as March 2004, and seven on-site examinations beginning in August 2004.

The FDIC relied principally on suggestions and persuasion to encourage the Board and
management to address risks identified. Regulators did not impose any informal or
formal enforcement actions until December, 2007. Based on the FDIC and State
observations at each examination, in retrospect, a stronger supervisory response at earlier
examinations may have been prudent in light of the nature and extent of the risks and the
institution’s lack of adequate or timely corrective action. Earlier and stronger supervisory
action may have influenced MSB’s Board and management to limit the significant level
of risk assumed during the institution’s rapid growth period. It may also have established
a more appropriate supervisory tone and prompted the Board and management to take
more timely and adequate action to address examiner concerns, thereby mitigating, to
some extent, the losses incurred by the DIF.

With respect to Prompt Corrective Action (PCA), the FDIC followed PCA guidance, but
PCA had little or no impact on minimizing the loss to the DIF. Capital levels turned out
to be a lagging indicator of the institution’s financial condition.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the performance audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which
occurred during the period from August 31, 2009 through December 3, 2009.

Yours truly,




                                            I-4
Background

On July 2, 2009, the Texas Department of Banking (TDB) closed Millennium State Bank
of Texas (MSB) and named the FDIC as receiver. On July 22, 2009, the FDIC notified
the Office of Inspector General (OIG) that MSB’s total assets at closing were
$121.4 million and the estimated loss to the Deposit Insurance Fund (DIF) was
$46.9 million. The OIG was required by section 38(k) of the Federal Deposit Insurance
(FDI) Act to conduct a material loss review of the failure of MSB, and retained KPMG
for this purpose.1

MSB was a state-chartered, non-member bank that was insured on August 20, 2003.
MSB was headquartered in Dallas, Texas and opened a second permanent location on
October 6, 2007, in Houston, Texas. The bank had no holding company, subsidiaries, or
affiliates.

The bank’s management pursued a lending strategy focused on funding small businesses,
mostly utilizing Small Business Administration2 (SBA) loans where the SBA either
guaranteed the loan or subordinated its interest in the real estate collateral. Specific
Commercial Real Estate (CRE) industry concentrations included loans collateralized by
hotels, convenience stores, and car washes. To fund portfolio growth, the bank relied
upon the issuance of Certificates of Deposit (CDs). The primary source of earnings for
MSB was from gains on the sale of the guaranteed portions of the SBA loans.3

Table 1 provides details on MSB’s financial condition as of December 2008, and for the
three preceding calendar years.




1
  In conducting this performance audit and preparing this report, KPMG relied primarily on information provided by
the FDIC OIG and DSC. Appendix I, Objective, Scope and Methodology, describes in greater detail the procedures
used by KPMG.
2
  MSB used principally two SBA programs: 7(a) and 504. The 7(a) program is a federal loan guarantee program
designed to help small businesses receive credit. The program provides loan originators a guarantee that if a loan
defaults, the SBA will pay off a percentage of the remaining balance. Lenders and the SBA share the risk at different
levels. Banks can sell in the secondary market the guaranteed or the un-guaranteed portion that is receiving the funding.
The funds received from this program must be used by the borrower for expansion and renovation improvements,
working capital, inventory, refinance and seasonal lines of credit.
The SBA Certified Development Company (CDC) (504) loan program provides financing for major fixed assets such
as owner-occupied real estate and long term machinery and equipment. This program involves a loan from a bank
secured with a first lien typically covering 50% of the project cost and a loan from the CDC secured with a second lien
(secured 100% by the SBA) covering 40% of the cost and a contribution of at least 10% from the business that is
receiving the funding. The funds received from this program must be used by the borrower to acquire fixed assets such
as land, land improvements, construction of new facilities or purchasing long term machinery and equipment. Banks
may sell the first lien loan in the secondary market.
3
  Supervisory History Memorandum, April 2009.


                                                          I-5
Table 1 Financial Condition of MSB
                                          Dec-08          Dec-07             Dec-06       Dec-05
Total Assets ($000s)                      $118,457         $127,509           $102,424      $69,821
Total Loans ($000s)                        $91,108         $108,764            $75,958      $53,848
Total Deposits ($000s)                    $108,967         $112,033            $90,132      $63,178
Net Income (Loss) ($000s)                  ($3,563)           ($861)             ($423)        $944
Source: Uniform Bank Performance Report (UBPR) for MSB (December 31, 2008)



Causes of Failure and Material Loss

MSB’s failure can be attributed to inadequate management and Board oversight, an
aggressive growth strategy centered in CRE lending, weak loan underwriting and credit
administration, poor earnings and an inadequate funding strategy. In the final Joint ROE
on May 11, 2009, examiners noted that the bank’s extremely weakened condition was
attributed to the following: (1) a flawed original business plan that was not sufficiently
adjusted through time to the bank’s risk profile, (2) an inexperienced Board and, (3) the
inability of the Board to administer the bank’s affairs at critical points. Throughout the
examination history, regulators made repeated criticisms of MSB’s management practices
and strategy. In May 2009, examiners specifically noted that the strategy of using high-
cost CDs sourced from the Internet to fund SBA loans in high risk sectors resulted in
unacceptable risk. In addition, examiners noted that lending practices included loans to
businesses in which the principals had limited experience and underwriting was based on
high cash flow projections or adjustments to historical cash flows. Based on figures in the
December 31, 2008 UBPR, in comparison with the bank’s peer group, MSB’s level of
CRE concentration was high. This made the bank vulnerable to any downturn in the CRE
market. During the December 15, 2008 State examination, examiners noted that efforts
by the Board to diversify the loan portfolio from specific industry concentrations were
unsuccessful.


Management and Board Oversight
Deviation from Business Plan

As early as the August 2004 Joint ROE, examiners indicated that MSB was operating
outside its original business plan. Examiners noted rapid growth in loans and deposits. At
that point, the earnings deficit was greater than double management’s original projections
and breakeven would not be attainable by the 11th month of operations as initially
projected. Figure 1 illustrates the actual asset growth for MSB versus its original
business projections during its first three years of operations.




                                                   I-6
Figure 1 Projected Versus Actual Asset Growth
                             Total Assets

              $120

              $100

              $80
 Millions $




              $60

              $40

              $20

                $-
                     2004            2005                2006

                                  Projected   Actual

Source: UBPR Reports for MSB (December 31, 2008)


The 2005 Joint examination confirmed that the bank was still operating outside the
parameters of its original business plan, and that management failed to notify the FDIC
and the TDB of these changes as required by the conditions for approval of the charter
and deposit insurance. Material changes from the original business plan included the use
of high cost, large balance CDs to fund a significant portion of its operations, the creation
of loan production offices outside its primary trade area in Dallas, Texas, and the extent
of its SBA lending program.

During the July 2005 examination, it was also noted that MSB’s business plan needed to
be updated to reflect changes that had occurred since the bank opened. Examiners
indicated that as of this examination MSB had no written strategic plan. MSB submitted a
strategic plan in 2006 that had aggressive growth projections which predicted the bank
would double in size by 2008.

In the 2007 Joint ROE, examiners indicated that MSB’s Board’s pro-forma projections
for the five year period ending November 30, 2011, were inconsistent with the strategic
plan dated November 30, 2006. Year-to-date interest expense exceeded the budget by 45
percent due to the unanticipated higher rates MSB had to pay to remain competitive.
Further, earnings were more than $1.1 million short of budget projections.

General Oversight

In the July 2005 examination, examiners indicated that the bank’s most senior executive
was the dominant policy maker and had significant influence over the Board. By the
August 2006 examination, issues with the Board became evident when one of its
members was placed on involuntary leave. This was a result of this individual
mishandling a specific credit line that led to a significant loss. Later, this person


                                                   I-7
apparently violated the conditions of his suspension from the Board and was replaced.4
Lack of attendance at Board meetings was specifically mentioned as a concern in the first
two (2004 and 2005) ROEs. Examiners indicated in the August 2006 Joint ROE that
MSB needed to hire a senior management official with experience in bank operations and
knowledge of Federal and State regulations. During the exit Board meeting at the 2007
Joint examination, several outside directors claimed management had not informed them
of a number of matters, including the payments made to a senior official in connection
with SBA loan referrals.5

The May 2008 ROE indicated that the Board failed to exercise adequate control of the
activities of a former senior official as these activities were the source of internal
conflicts among the Board. This individual was terminated for cause on March 4, 2008,
although he continued to serve on the Board as a director. This was one of several
management changes since the previous examination.6 The December 2008 State ROE
indicated that the unsafe and unsound condition of MSB resulted from inadequate Board
supervision, poor planning and weak management oversight. Examiners noted that asset
diversification was disregarded by management and the Board as indicated by industry
concentration levels. Also, the lack of Board effectiveness resulted in failure to act
resolutely in addressing the eroding capital position and concentration risk.7 Further,
conflicts of interest and turnover were noted by examiners in the final Joint examination
conducted in May 2009.

Violations of Regulatory Requirements

Regulatory and legal issues in MSB’s operations were reported as early as the July 2005
Joint ROE, when several violations of banking laws and regulations were identified.
These included Regulation O8, lending limit restrictions, unauthorized branching activity
and other regulations. Regulation O9 prohibits a bank from extending credit to any insider
of the bank in an amount that, when aggregated with all other extensions of credit to that
person and their related interests, exceeds the lending limit of the bank. That lending limit
is generally 15 percent of the bank’s unimpaired capital and surplus. Examiners noted an
apparent violation for advances to two directors and their related interests that exceeded
the lending limitation provided for by Regulation O of 15 percent of unimpaired capital
and surplus. Subsequently, an annual survey was conducted to identify all insiders and
their related interests. The survey failed to disclose all of the related interests of several
insiders, and included only those that had outstanding extensions of credit with the bank.4
During the Joint August 2006 examination, examiners indicated that the apparent
violation of Regulation O was due to an incomplete understanding of the law. In the
same examination it was noted that the bank was in an apparent violation of section
4
  Report of Examination, August 28, 2006.
5
  DRR document on bank closing, June 15, 2009.
6
  Report of Examination, May 19, 2008.
7
  Report of Examination, December 15, 2008.
8
  The Federal Reserve Board’s Regulation O is made applicable to State non-member banks by Section 18(j)(2) of the
Federal Deposit Insurance Act. Section 215.8 of Regulation O requires maintenance of sufficient records, through an
annual survey, to identify all insiders of the bank, and records of all extensions of credit, including the amount and
terms of each extension of credit.
9
    Section 215.4(c).


                                                          I-8
325.5(f) of the FDI Rules and Regulation that requires that non-mortgage servicing assets
be deducted from capital to the extent that they do not meet certain requirements. The
bank was in apparent violation because it failed to perform required quarterly valuation
assumptions of these assets and was therefore including ineligible portions in its Tier 1
Capital calculations.

The August 2007 Joint ROE noted one apparent violation of Regulation O for an
overdraft of a Director. This was a repeat of an apparent violation cited in the 2005 ROE.
Significant regulatory and legal issues continued as several irregular insider transactions
involving top level executives were later identified. These included payment of referral
fees without Board approval and a reciprocal bank-stock loan transaction totaling
$100,000 to an officer of another banking institution.5

Growth Strategy Centered in CRE Lending

As a de novo institution, MSB pursued a strategy of lending to small businesses,
particularly where the SBA either guaranteed the loan or subordinated its interest in the
real estate collateral. MSB developed a high CRE concentration in relationship to its peer
group as a result of this strategy.10 Table 2 summarizes MSB’s CRE concentrations in
comparison to its peer group. As outlined below, MSB’s volume of CRE loans as a
percentage of total capital was significantly higher than its peer group as a de novo
institution through 2006, and the variance became greater over time. The bank’s CRE
loans as a percentage of total capital jumped from 427 percent as of December 31, 2006
to 737 percent as of December 31, 2007, close to two times greater than its peer group.

Table 2 MSB’s CRE Concentration Relative to Peers
                                                                     Millennium CRE   Peer Group CRE
                          Millennium CRE        Peer Group CRE
                                                                       Loans as a       Loans as a
                             Loans as a            Loans as a
           Date                                                       Percentage of    Percentage of
                         Percentage of Total   Percentage of Total
                                                                     Average Gross     Average Gross
                               Capital              Capital
                                                                          Loans            Loans
  December 31, 2004         380%                      235%              51.91%           49.65%
  December 31, 2005         545%                      314%              63.89%           51.73%
  December 31, 2006         427%                      337%              69.00%           53.84%
  December 31, 2007         737%                      401%              80.14%           56.87%
  December 31, 2008         935%                      340%              79.63%           48.09%
Source: UBPRs for MSB (December 31, 2008)


The July 2005 Joint ROE noted that rapid asset growth was impacting the bank’s capital
ratios. At the same examination, it was noted that MSB management failed to report loan
industry concentrations to the Board. The industry concentrations grew from that point
forward. For example, convenience store loans in 2005 represented 53 percent of Tier 1
Capital, climbing to 169 percent by the 2007 Joint examination. The December 2008
State ROE, indicated that risk management practices were inadequate and not
commensurate with the concentration risk being assumed by the Board. Further, it should
be noted that two of these concentrations had previously been brought to the Board’s

10
     Uniform Bank Performance Report, December 31, 2008.


                                                       I-9
attention by examiners with direction to diversify the loan portfolio and reduce undue
concentration risk.7

As discussed in Financial Institution Letter 104-2006 (FIL-104-2006) issued
December 12, 2006, titled Concentrations in Commercial Real Estate Lending, Sound
Risk Management Practices, rising CRE concentrations could expose institutions to
unanticipated earnings and capital volatility in the event of adverse changes in the general
CRE market. The December 2008 State ROE noted a failure to diversify the loan
portfolio and failure to adequately monitor the collateral and cash flow position of
borrowers in a declining economy, both of which were cited as reasons for the sharp
deterioration in MSB’s condition.

Loan Underwriting and Credit Administration

Deficiencies in loan underwriting practices were noted at the 2005 Joint examination
when “risky” lending practices were first identified. During this examination, it was
noted that these lending practices included loans to businesses in which the principals had
limited experience in their field and underwriting was based on high cash flow
projections or adjustments to historical cash flow. The 2005 Joint ROE indicated that the
lending practices at that time were of regulatory concern and coupled with considerable
loan growth could potentially result in a high level of future problem loans. Examiners
identified loan documentation exceptions totaling $9.8 million or 38 percent of the dollar
volume of loans reviewed. Excessive loan growth and the related increase in work load
appeared to have contributed to the level of exceptions.11 Risk identification procedures
required improvement as the internal loan risk grading system was not commensurate
with regulatory classifications. The failure of management to properly risk rate credits
resulted in downgrades by examiners, indicating the bank’s Allowance for Loan and
Lease Losses (ALLL) did not properly reflect the level of risk in its loan portfolio.

Loan underwriting deficiencies were still noted in the 2006 Joint ROE. During the first
three years of operation, the bank sustained $923,000 in loan charge offs. This was of
regulatory concern for a de novo bank.4 The level of past due loans and the rapid
deterioration of five large lines of credit noted in the August 2006 Joint ROE contributed
to underwriting concerns at that examination. Tighter lending standards and better
collection efforts were suggested by the examiners. Documentation exceptions were still
significant in the August 2007 Joint ROE. In this report, documentation exceptions were
uncovered in 28 percent of loans that were reviewed. In addition, examiners noted that
problem credits were not being properly identified by management.

Weaknesses were also found in credit administration practices related to the ALLL
methodology at the August 2007 Joint examination. Several loans were downgraded
resulting in an inadequately funded ALLL. Examiners indicated that additional provision
expenses were required to bring the ALLL to an appropriate level, considering the
amount of risk within the portfolio. By the May 2008 examination, classified assets were
60.41 percent of Tier 1 capital plus the ALLL. Almost all of these loans were to SBA
11
     Report of Examination, July 25, 2005.


                                             I-10
program borrowers who experienced problems after their first few years of operations
following the initial underwriting of the loan. During the May 2008 FDIC examination,
examiners recommended that MSB re-evaluate its ALLL methodology, in particular to
validate the historical loss factors. The rate of documentation exceptions remained high
at 34 percent.

Sharp deterioration in MSB’s financial condition was noted in the December 2008 State
ROE. Specific deficiencies in underwriting and credit administration included:

      Poor choice of risk;
      Over-lending in light of collateral support;
      Limited ability of repayment through cash flow or the sale of collateral;
      Failure to diversify risk in the loan portfolio;
      Lending to persons with limited background in the line of business; and
      Failure to adequately monitor the collateral and cash flow position of borrowers in
       a declining economy.

Documentation exceptions were considered excessive at approximately one third of the
dollar volume of loans reviewed at the December 2008 State examination. Problem loan
identification was considered inadequate as shown by the large volume of examiner
classification downgrades (approximately $7.3 million). Loan losses were mainly a
consequence of failure to adequately collateralize credits at inception and monitor
collateral values during the term of the loan and the course of the transactions.7 The final
joint examination conducted in May 2009 showed adversely classified assets totaled 328
percent of Tier 1 capital plus the ALLL.

Funding and Earnings Strategies

MSB’s first ROE in August 2004 revealed that non-core and volatile deposits of CDs
over $99 thousand was the funding source that fueled the higher than expected loan
growth. Examiners noted that the rates of these time deposits were among the highest in
the nation, and the non-core funding ratio was in excess of MSB’s own policy guidelines.
The July 2005 Joint ROE indicated that MSB acquired a large volume of deposits
through CDs with special rate offerings that were advertised on an Internet listing service.
The amount of time deposits $99 thousand and greater totaled approximately 75 percent
of deposits.11

In the July 2005 Joint ROE, the main earnings source identified was from the sale of the
guaranteed portions of SBA loans. As a consequence, MSB was retaining the entire credit
risk of these exposures –that being the unguaranteed portion of the loan. Examiners noted
that the bank would have been operationally unprofitable without that income source.
Earnings continued to be supported by the sale of the guaranteed portions of SBA loans
as indicated in the August 2006 Joint ROE. At this examination it was noted that the
bank’s cost of funds remained above peers due to a significant reliance on time deposits.
Overhead costs were well above its peers due to a large number of employees, high


                                           I-11
compensation levels and other elevated operating expenses. The net non-core funding
dependency ratio of 12.37 percent indicated that the bank was partially reliant on
potentially volatile liabilities to fund long-term earning assets.4

Earnings performance was considered deficient in the August 2007 Joint examination
report. Examiners noted that revenue was not sufficient to support operations, provide for
the accretion of capital and maintain an adequately funded ALLL in relation to the
institution’s growth and trends. Non-interest income continued to be comprised of
proceeds from the sale and servicing of SBA loans. The bank continued to rely on CDs
advertised nationally over the Internet with higher rates being paid than in the local
market.5

Figure 2 illustrates the quantity of CD (Time) deposits versus total deposits.

Figure 2 Comparison of Time Deposits versus Total Deposits for MSB
                $120

                $100

                $80
   Millions $




                $60

                $40

                $20

                  $-
                       12/31/2004 12/31/2005 12/31/2006 12/31/2007 12/31/2008

                                    Time Deposits   Total Deposits

Source: UBPR reports for MSB (December 31, 2008)

At the May 2008 FDIC examination it was noted that the bank had incurred operating
losses in the prior 2 years due to a combination of factors including, excessive overhead
costs, large provision for loan losses, expensive funding and a highly sensitive interest
rate risk position which resulted in a decline in the net interest margin. Specifically,
examiners indicated that the interest expense levels were a reflection of an extraordinary
dependency on high-cost time deposits.

By December of 2008, the State ROE indicated that the bank’s earnings performance was
critically deficient due to a combination of factors which included paying high rates for
non-core deposits, elevated overhead expenses and high volume of nonperforming loans.




                                                    I-12
The FDIC’S Supervision of MSB

Through its supervisory efforts, the FDIC identified key risks in MSB’s management
practices and operations and brought these risks to the attention of the institution’s Board
and management through regular discussions and correspondence, ROEs, and visitations.
Key risks identified by examiners included inadequate Board and management oversight,
weak risk management practices pertaining to the institution’s rapid loan growth and
significant loan concentrations, poor loan underwriting and credit administration
practices, and reliance on high cost funding sources. The FDIC and TDB conducted three
separate visitations beginning as early as March, 2004, and seven on-site examinations
beginning in August, 2004.

The FDIC relied principally on suggestions to address risks identified by examiners and
did not impose any informal or formal enforcement actions until December, 2007. Based
on the FDIC and State observations at each examination, in retrospect, a stronger
supervisory response at earlier examinations may have been prudent in light of the nature
and extent of the risks and the institution’s lack of adequate or timely corrective action.
Stronger supervisory action in the institution’s formative years may have influenced
MSB’s Board and management to limit the significant level of risk assumed during the
institution’s rapid growth period. It may also have established a more appropriate
supervisory tone and prompted the Board and management to take more timely and
adequate action to address examiner concerns, thereby mitigating, to some extent, the
losses incurred by the DIF.


Supervisory History

The FDIC, in conjunction with TDB, provided ongoing supervision of MSB through
regular on-site risk management examinations and periodic on-site visitations and off-site
reviews. To its credit, the FDIC communicated continuously, both internally and with
MSB as concerns arose, as documented by numerous emails and other documentation. In
addition, the FDIC performed daily monitoring of MSB’s liquidity position in the days
preceding the institution’s failure. Table 3 summarizes key information pertaining to the
on-site risk management examinations and visitations that the FDIC and the TDB
conducted of MSB from March, 2004, until the institution failed.




                                           I-13
Table 3 On-Site Examinations, Visitations and Actions
        Date          On-Site Supervisory          Supervisory               Informal or Formal Action**
                             Effort              Ratings (UFIRS)*                       Taken
     03/23/04            FDIC Visitation             No Ratings                           None
     08/09/04           Joint Examination             212332/2                            None
     12/16/04            FDIC Visitation             No Ratings                           None
     07/25/05           Joint Examination             223222/2                            None
     03/06/06            Joint Visitation            No Ratings                           None
     08/28/06           Joint Examination             223322/2                            None
     08/27/07           Joint Examination             223432/3                       BBR 12/12/07
     05/19/08           FDIC Examination              333433/3                           None
                                                                                    DL*** 1/26/09
     12/15/08           State Examination             555555/5
                                                                             Order of Supervision 1/26/09
                                                                                    C&D 5/19/09
     05/11/09           Joint Examination             555555/5                    Institution Closed
                                                                                         7/2/09
Source: Reports of Examination and Supervisory History Memorandum for MSB
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to
evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset
quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each
component, and an overall composite score, is assigned a rating of 1 through 5, with 1 having the least regulatory
concern and 5 having the greatest concern.
**Informal actions often take the form of Bank Board Resolutions (BBR) or Memorandums of Understanding (MOU).
Formal enforcement actions often take the form of Cease and Desist Orders, but under severe circumstances can also
take the form of insurance termination proceedings.
***Texas Finance Code Section 35.001.DL (Determination Letter) states that if the banking commissioner determines
from examination or other credible evidence that a state bank is in a condition that may warrant the issuance of an
enforcement order under this chapter, the banking commissioner may notify the bank in writing of the determination,
the requirements the bank must satisfy to abate the determination, and the time in which the requirements must be
satisfied to avert further administrative action. (Source: http://www.banking.state.tx.us/lg_manual/35_001-013.htm)

As illustrated in Table 3, three visitations were conducted at MSB from 2004 to 2009 in
addition to the required risk management examinations. The purpose of the two
visitations conducted in 2004 was to assess MSB’s business practices, such as
management’s asset growth goals, and to review the capital plan. The purpose of the
visitation in 2006 was to review the strategic plan, follow up on criticisms from the
previous examination, and monitor asset quality.

The FDIC and TDB instituted one informal action and one formal action between 2007
and the institution’s failure. A brief description of these actions follows.

        December 12, 2007 BBR. Following the August 27, 2007 Joint examination, the
         FDIC and TDB required the Board to adopt a BBR. The BBR contained eight
         provisions addressing such areas as earnings, ALLL methodology, credit
         administration policies, volatile liabilities, documentation exceptions, violations
         of law, and policies and procedures governing transactions with insiders.
        May 15, 2009 C&D. MSB stipulated to a Cease and Desist Order (C&D) based
         on the critical condition of the bank. The C&D ordered MSB to take actions in the
         following areas: concentration reductions, capital increase and maintenance,
         charge off reduction, restriction on advances to classified borrowers, ALLL and


                                                      I-14
            amended Consolidated Report of Condition and Income (Call Report),
            liquidity/asset/liability management, management and Board supervision, loan
            committee and loan review requirements, strategic plan and correction of
            violations, among others.

In addition, the TDB issued enforcement actions based on the December 15, 2008 State
examination. A brief description of these enforcement actions follows:

           January 26, 2009 DL and Order of Supervision. Following the December 15,
            2008 State examination, the State issued a Determination Letter (DL), effective
            January 26, 2009, and appointed a Supervisor, who began work onsite at MSB the
            following day. The terms of the DL called for a Tier 1 leverage ratio of 8 percent
            and a total Risk Based Capital (RBC) ratio of 10 percent, development of a
            liquidity and interest rate risk policy, daily liquidity monitoring, a reduction plan
            for classified assets, management review by an independent party, development of
            a budget and a strategic plan, ALLL adequacy, correction of loan administration
            deficiencies, establishment of effective internal and external loan reviews,
            correction of violations, and prohibition of dividends without prior State approval,
            among other matters.


Supervisory Response to Key Risks

A stronger supervisory response at earlier examinations may have been prudent in light
of MSB’s risk profile, lack of adequate or timely corrective action to address its weak
risk management practices, and problems with Board governance and management
oversight. For example, the FDIC could have required that MSB commit to a written plan
and timeline for addressing key risks identified by examiners before 2007 and monitored
MSB’s performance relative to the plan. Among other things, the plan could have
required MSB to:12
     Establish reasonable growth projections and parameters for ensuring that loan
       growth was appropriately constrained;
     Establish prudent risk management practices in its SBA loan portfolio;
     Mitigate the CRE credit concentration risk in its loan portfolio; and
     Reduce its dependence on high yield internet sourced CDs.

It is recognized that the December 2007 BBR, May 2009 C&D, and the January 2009 DL
and Order of Supervision collectively responded to MSB’s areas of risk. However, at the
time these actions were taken, MSB’s growth had already occurred and concentration
levels relative to Tier 1 capital significantly exceeded the average for its peer group.
Action steps to persuade the Board to make key changes earlier could have been taken to
achieve better risk management practices.13 According to the DSC Formal and Informal
Action Procedures Manual (FIAP), “The FDIC generally uses MOUs instead of BBRs,
especially when there is reason to believe the deficiencies noted during an examination
12
     Auditor comments based on interview with Case Manager.
13
     Auditor comments based on interview with Case Manager.


                                                       I-15
need a more structured program or specific terms to effect corrective action.”14 Instead of
a BBR, an MOU could have been instituted as a stronger supervisory response based on
the findings of the August 2007 Joint examination, and based on findings from prior
examinations on which management and the Board had failed to take corrective actions.

The FDIC and TDB issued a C&D on May 15, 2009. Although a C&D was appropriate
for the risks that were identified, the ultimate viability of the institution was already in
serious question by the time the C&D was issued. By this time the Tier 1 Capital ratio
was 1.59 percent; and given the rapid deterioration of asset quality, failure of the bank
was already imminent unless there was an immediate infusion of capital.15

Supervisory Concern Related to MSB’s Board and Management

As early as August 2004, examiners expressed concerns with regard to MSB’s Board and
management team. By the May 2009 Joint examination, examiners noted that the bank’s
extremely weakened condition could be attributed to a flawed original business plan and
management inaction to adjust business strategies to the bank’s changing risk profile.
Examiners concluded that this resulted from an inexperienced Board and the inability of
the Board to administer the bank’s affairs at critical points. Table 4 summarizes the
supervisory concerns related to the Board and management.

Table 4 Supervisory Concerns Related to MSB’s Board and Management
  Examiner                             Examiner Comments
  Concerns
Attendance at               In the August 9, 2004 examination, examiners noted that a review of the
Board Meetings               Board minutes revealed that out of 11 Board meetings, one director missed 5
                             and one director missed eight of the meetings. Examiners commented that in
                             order to fulfill the fiduciary duties of a director, regular attendance at Board
                             meetings was crucial.
                            In the July 25, 2005 Joint examination, examiners noted that attendance on
                             the part of three directors required improvement. Further, in the 12 months
                             prior to the 2005 examination, one director missed seven meetings, one
                             director missed four meetings, and a third director missed three meetings.
                            The following year, during the August 28, 2006 Joint examination,
                             examiners noted that one director attended only eight of 16 Board meetings
                             held since the last examination. Examiners indicated that regular attendance
                             at Board meetings was necessary for a director to properly fulfill his
                             responsibility to the bank.
                            In December 2008 examiners indicated that Board committees had failed to
                             function due to lack of director attendance.
Violations of               During the July 25, 2005 examination, examiners noted that numerous
Banking Laws                 apparent violations of banking laws and regulations existed. These included
and Regulations              Regulation O, lending limit restrictions, unauthorized branching activities,
                             and other regulations.
                            In August 2006, examiners noted a repetition of an apparent infraction of

14
     DSC Formal and Informal Procedures (FIAP) Manual, pages 3-4.
15
     Report of Examination, May 11, 2009.


                                                       I-16
   Examiner                                       Examiner Comments
   Concerns
                          one section of Regulation O.
                         In August 2007, examiners again noted an apparent violation of one section
                          of Regulation O.
Board and                As early as July 2005, examiners noted that management performance and
Management                Board supervision needed improvement. Further, rapid loan growth caused
Oversight and             operational and oversight weaknesses.
Performance              By the August 2006 examination, examiners noted that management was
                          less than satisfactory and its overall performance was in need of
                          improvement.
                         In August 2007, examiners listed Matters Requiring Attention (MRA). One
                          of these MRAs was that management needed to improve its communication
                          with the outside directors. Further, examiners indicated that executive
                          management performance and Board supervision was less than satisfactory.
                          A Senior Official at that time was noted to be the dominant policy maker and
                          had significant influence over the decisions of the Board.
                         During the May and December of 2008 examinations, examiners noted that
                          management’s performance was less than satisfactory as evidenced by the
                          overall condition of the bank.
                         The December 2008 examination indicated that management and Board
                          performance needed to be significantly improved. Weaknesses were evident
                          in credit selection and underwriting, collection efforts, and the depth and
                          succession of management and staffing. Further, examiners noted that the
                          Board had failed to provide adequate leadership and oversight.
Business Plan            In July 2005, examiners noted that the bank had failed to notify its regulators
                          of material changes to the bank’s business plan, as required by The Order for
                          Approval of Insurance and the Order Approving Charter. These material
                          changes included the establishment of loan production offices outside the
                          primary trade area, the use of potentially volatile Internet deposits, and the
                          extent of the SBA lending program.
                         In August 2006, examiners noted that the amended strategic plan included
                          rather aggressive growth projections and anticipated the bank would more
                          than double in size by the end of 2008.
                         The December 2008 examination listed matters that required Board
                          attention. Examiners noted that the Board and management needed to take
                          immediate steps to improve the bank’s overall condition by developing a
                          strategic plan that was consistent with conditions and circumstances.
                         The final examination on May 2009 noted that the bank’s extremely weak
                          condition could be attributed to a flawed business plan, poor execution of the
                          business plan, the lack of experience at the Board level, and the inability of
                          the Board to administer the bank’s affairs at critical junctures.
Source: Reports of Examination for MSB


From 2005 through 2009, examiners consistently made note of the management and
Board issues. Examiners noted that MSB’s most senior official was a dominant policy
maker who had significant influence over the Board.5 For example, based on interviews
with DSC personnel in Dallas, the bank’s 2006 strategic plan was this individual’s vision
for the bank rather than the Board’s vision. Further, the CAMELS component rating


                                                 I-17
assigned to management remained at “3” during the July 2005, August 2006, August
2007, and May 2008 examinations. The May 2008 examination noted that several
management changes were made to correct previous supervisory concerns. However, the
changes were not completed in time to correct the bank’s deteriorating condition. By the
December 2008 State examination, the management component rating was downgraded
to “5”. The Risk Management Manual of Examination Policies states that a rating of 5
indicates that management and the Board have not demonstrated the ability to correct
problems and implement appropriate risk management practices.16 Based on examiner
comments regarding MSB management from 2004 through 2009, more prompt and
stronger supervisory action appeared to be warranted.

Supervisory Concern Related to CRE Concentrations and Underwriting

The July 2005 Joint examination noted asset quality as satisfactory and the level of
classified loans was not considered excessive. However, examiners expressed concerns
that lending practices and significant loan growth could result in an excessive level of
future problem loans. Other examiner concerns included loans to borrowers with a lack of
industry experience, overly optimistic projections and some credits that were risky from
inception. The report indicated that MSB management did not report loan industry
concentrations to the Board at that time and management had not been tracking real estate
loans with high loan-to-value ratios. Examiners noted that management should regularly
monitor and report specific loan industry concentrations to the Board in order to assess
potential areas of vulnerability. This was in response to the fact that convenience store
loans represented approximately 52 percent of Tier 1 capital.

Although by June 30, 2006, CRE concentrations levels were at 346 percent of total
capital,17 the August 2006 examination made no mention of CRE concentration issues.
Some underwriting concerns were identified as the bank had sustained $923 thousand in
charge offs in its first three years of operations. Examiners considered this level
unfavorable, given that MSB was a de novo bank.

The following industry concentrations18 in CRE lending were noted in the August 2007
Joint ROE as a percentage of tier 1 capital:

        Hotels – 182 percent
        Convenience Stores – 169 percent
        Car Washes – 102 percent

The 2007 Joint examination commented that the loan policy should be amended to
include limits on concentrations and an exit strategy to reduce concentrations should
economic conditions deteriorate in these industries.


16
   DSC Risk Management Manual of Examination Policies, section 1.1.
17
   Uniform Bank Performance Report, June 30, 2006.
18
   DSC's Risk Management Manual of Examination Policies, section 16-1 states that examiners may list industry
concentrations of 100% or more of Tier 1 Capital in a schedule in the ROE.


                                                       I-18
At the May 2008 examination, an asset quality component rating of “3” was issued as
asset quality had weakened, evidenced by an increased level of adversely classified
assets. Classified items were 60.41 percent of Tier 1 capital plus the ALLL. The majority
of classified items were loans that deteriorated in credit quality since the previous
examination. Almost all of these loans were to SBA program borrowers who experienced
problems after their first few years.6 The hotel and motel concentration represented 257
percent of Tier 1 capital, while convenience store concentration represented 144 percent
as of April 30, 2008. In this examination, examiners noted that efforts should have been
made to diversify the loan portfolio and reduce concentrations in certain specific
industries. Further, credit documentation exceptions increased to 43 percent of loans.

Seven months later during the December 2008 State examination, examiners noted that
while management satisfactorily identified and reported concentrations of credit, previous
ROEs had recommended that efforts be made to diversify the loan portfolio and reduce
the bank’s concentrations in certain specific industries. The examination noted that hotel
and motel loans, an area in which an industry concentration had been repeatedly cited,
contributed 45.5 percent of total classified assets. The examination noted the following
weaknesses as the reason for the sharp deterioration of MSB’s financial condition:

      Failure to adequately monitor the collateral and cash flow position of borrowers in
       a declining economy;
      Lending to persons with limited background in the line of business;
      Failure to diversify risk in the loan portfolio;
      Lending to borrowers with limited ability of repayment through cash flow or the
       sale of collateral;
      Over-lending in light of collateral support; and
      Poor choice of risk.

The Interagency guidelines issued December 12, 2006 titled, Concentrations in
Commercial Real Estate Lending, Sound Risk Management Practices, discuss how rising
CRE concentrations could expose institutions to unanticipated earnings and capital
volatility in the event of adverse changes in the general CRE market. In this case adverse
changes in the CRE market impacted MSB negatively.

Although there were repeated concerns by examiners on concentration levels,
recommendations made, and enforcement actions issued, stronger or more detailed
supervisory actions may have been appropriate in order to place greater pressure on
management to establish prudent concentration limits and controls commensurate with
risk. When the BBR was instituted in 2007 a stronger supervisory action may have been
warranted considering the level of risk and management’s lack of corrective action to
repeated examiner suggestions in prior years. By the time the C&D was instituted in 2009
the bank’s failure was already imminent.




                                          I-19
Implementation of PCA

The purpose of PCA is to resolve the problems of insured depository institutions at the
least possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements the requirements of PCA by establishing a framework of restrictions and
mandatory supervisory actions that are triggered by an institution’s capital levels. Based
on the supervisory actions taken, the FDIC properly implemented applicable PCA
provisions of section 38. However, capital levels turned out to be a lagging indicator of
the institution’s financial condition.

Table 5 illustrates that MSB was considered well capitalized for PCA purposes until the
December 2008 State examination when the institution was already at serious risk of
failure.

Table 5 MSB’s PCA Capitalization Categories
     Examination as of            Capitalization Category         Informal or Formal Action Taken
          Date
           6/30/2004                    Well Capitalized                        None
           6/30/2005                    Well Capitalized                        None
           6/30/2006                    Well Capitalized                        None
           6/30/2007                    Well Capitalized                   BBR 12/12/07
           3/31/2008                    Well Capitalized                        None
                                                                            DL 1/26/09
           9/30/2008               Adequatelly Capitalized              Order of Supervision
                                                                               1/26/09
                                                                           C&D 5/19/09
           3/31/2009            Significantly Undercapitalized           Institution Closed
                                                                                7/2/09
Source: Reports of Examination for MSB

Following the December 15, 2008 State examination, due to the bank’s adequately
capitalized status, and pursuant to Section 337.6 of the FDIC Rules and Regulation, MSB
could not solicit deposits that exceeded more than 75 basis points than the prevailing
effective yields on insured deposits of comparable maturity in its normal market area
without prior FDIC approval.3

The Call Report as of March 31, 2009, showed that the bank had fallen to the
Significantly Undercapitalized category. As a consequence, the FDIC notified MSB’s
Board that subject to section 38 of the FDI Act, a capital restoration plan was required.19
This was further reiterated during the May 2009 Joint examination, when the Board and
shareholders were urged to take immediate steps to restore capital to an acceptable level
commensurate with the bank’s risk profile. Following receipt of the State’s finalized
examination report, the Dallas Regional Office began preparing a C&D which became
19
     Prompt Corrective Action Notification, May 5, 2009.


                                                           I-20
effective May 19, 2009, the terms of which called for the infusion of $3.3 million in new
capital within 30 days to increase the Tier 1 leverage, Tier 1 RBC, and total RBC ratios
to 6.52%, 8.81%, and 10.07%, respectively. The C&D required reduction plans for
classified assets and concentrations, ALLL adequacy, development of a budget, a
strategic plan, a profit plan, a written liquidity plan, restriction on dividends without prior
FDIC and State approval, and correction of violations, among other matters. The FDIC
adhered to its own policy when the PCA category for MSB fell to Significantly
Undercapitalized based on the analysis of the March 31, 2009 Report of Condition, by
subjecting the institution to capital restoration requirements. However, by the time these
actions were enacted MSB’s financial condition had already severely deteriorated.




                                             I-21
                                                                           Appendix 1


Appendices

                  1. Objectives, Scope and Methodology


Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the
FDI Act, which provides, in general, that if a deposit insurance fund incurs a material loss
with respect to an insured depository institution, the Inspector General of the appropriate
federal banking agency shall prepare a report to that agency reviewing the agency’s
supervision of the institution. The FDI Act requires that the report be completed within
6 months after it becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38. We evaluated
whether capital was an adequate indicator of safety and soundness and examiner’s
compliance with PCA guidelines.

We conducted this performance audit from August to December 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained as described in the Scope and Methodology section, provides a
reasonable basis for our findings and conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Millennium State Bank from August 20,
2003, until its failure on July 2, 2009. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

        Analyzed examination and visitation reports prepared by the FDIC and the TDB
         examiners from August 2004 to July 2009.

        Reviewed the following documentation:




                                           I-22
                                                                           Appendix 1

             Financial institution data and correspondence maintained at the DSC’s
              Dallas Regional Office and Dallas Field Office, as provided to KPMG by
              DSC.

             Reports prepared by the Division of Resolutions and Receiverships (DRR)
              and DSC relating to the bank’s closure.

             Pertinent DSC policies and procedures.

       Interviewed the relevant FDIC officials having supervisory responsibilities
        pertaining to MSB, which included DSC examination staff in the Dallas Region.

       Interviewed appropriate officials from the TDB to discuss the historical
        perspective of the institution, its examinations, and other activities regarding the
        state's supervision of the bank.

       Researched various banking laws and regulations, including Texas state laws.


KPMG relied primarily upon the materials provided by the FDIC OIG and DSC,
including information and other data collected during interviews. KPMG did not perform
specific audit procedures to ensure the information and data were complete and accurate.
KPMG is, however, aware that Circular 12000.1, Cooperation with the Office of
Inspector General, dated September 28, 2007, requires that all FDIC employees,
contractors, and subcontractors cooperate with the OIG in order for the OIG to carry out
its statutory mandate. To that end, all employees, contractors, and subcontractors must:

     (1) provide authorized representatives of the OIG immediate and unrestricted access
to all Corporation, receivership, contractor, and subcontractor personnel, facilities,
equipment, hard copy and electronic records, files, information systems, and other
sources of information when requested during the course of their official duties.

     (2) Provide authorized representatives of the OIG immediate and unrestricted
access to any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions
contained in reports of examination and other relevant supervisory correspondence
between the FDIC and the bank. KPMG relied on the information provided in the
interviews without conducting additional specific audit procedures to test such
information.




                                            I-23
                                                                           Appendix 1

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Millennium State Bank’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG’s program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests are discussed,
where appropriate, in this report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           I-24
                                                                             Appendix 2


                            2. Glossary of Terms


        Term                                           Definition
Adversely Classified   Assets subject to criticism and/or comment in an examination report.
Assets                 Adversely classified assets are allocated on the basis of risk (lowest to
                       highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for Loan     Federally insured depository institutions must maintain an ALLL that is
and Lease Losses       adequate to absorb the estimated loan losses associated with the loan and
(ALLL)                 lease portfolio (including all binding commitments to lend). To the
                       extent not provided for in a separate liability account, the ALLL should
                       also be sufficient to absorb estimated loan losses associated with off-
                       balance sheet loan instruments such as standby letters of credit.
Bank Board             A Bank Board Resolution is an informal commitment adopted by a
Resolution (BBR)       financial institution’s Board of Directors (often at the request of the
                       FDIC) directing the institution’s personnel to take corrective action
                       regarding specific noted deficiencies. A BBR may also be used as a tool
                       to strengthen and monitor the institution’s progress with regard to a
                       particular component rating or activity.
Call Report            Consolidated Reports of Condition and Income (also known as the Call
                       Report) are reports that are required to be filed by every national bank,
                       state member bank, and insured nonmember bank pursuant to the Federal
                       Deposit Insurance Act. These reports are used to calculate deposit
                       insurance assessments and monitor the condition, performance, and risk
                       profile of individual banks and the banking industry.
Cease and Desist       A formal enforcement action issued by financial institution regulators to
Order (C&D)            a bank or affiliated party to stop an unsafe or unsound practice or
                       violation. A C&D may be terminated when the bank’s condition has
                       significantly improved and the action is no longer needed or the bank has
                       materially complied with its terms.
Concentration          A concentration is a significantly large volume of economically related
                       assets that an institution has advanced or committed to a certain industry,
                       person, entity, or affiliated group. These assets may, in the aggregate,
                       present a substantial risk to the safety and soundness of the institution.
Memorandum of          A Memorandum of Understanding is an informal agreement between the
Understanding          institution and the FDIC, which is signed by both parties. The State
(MOU)                  Authority may also be party to the agreement. MOUs are designed to
                       address and correct identified weaknesses in an institution’s condition.




                                          I-25
                                                                            Appendix 2

       Term                                           Definition
Prompt Corrective    The purpose of PCA is to resolve the problems of insured depository
Action (PCA)         institutions at the least possible long-term cost to the DIF. Part 325 of the
                     FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                     325.101, et. seq., implements section 38, Prompt Corrective Action, of
                     the FDI Act, 12 United States Code section 1831 (o), by establishing a
                     framework for taking prompt corrective supervisory actions against
                     insured nonmember banks that are less than adequately capitalized. The
                     following terms are used to describe capital adequacy: Well Capitalized,
                     Adequately Capitalized, Undercapitalized, Significantly
                     Undercapitalized, and Critically Undercapitalized.
Uniform Bank         The UBPR is an analysis of financial institution financial data and ratios
Performance Report   that includes extensive comparisons to peer group performance. The
(UBPR)               report is produced by the Federal Financial Institutions Examination
                     Council for the use of banking supervisors, bankers, and the general
                     public and is produced quarterly from Call Report data submitted by
                     banks.




                                        I-26
                                                                      Appendix 3

                               3. Acronyms



Acronym   Definition

ALLL      Allowance for Loan and Lease Losses
BBR       Bank Board Resolution
C&D       Cease and Desist Order
          Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to
CAMELS
          Market Risk
CD        Certificate of Deposit
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DL        Determination Letter
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FIAP      Formal and Informal Action Procedures
FIL       Financial Institution Letter
GAAP      Generally Accepted Accounting Principles
MOU       Memorandum of Understanding
MRA       Matters Requiring Attention
MSB       Millennium State Bank of Texas
OIG       Office of Inspector General
PCA       Prompt Corrective Action
RBC       Risk-Based Capital
ROE       Report of Examination
SBA       Small Business Administration
TDB       Texas Department of Banking
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                         I-27
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On January 15, 2010, the
Director, Division of Supervision and Consumer Protection (DSC), provided a written
response to the draft report. That response is provided in its entirety on page II-2 of this
report.

DSC reiterated the OIG’s conclusions regarding the causes of MSB’s failure and the
FDIC’s supervision of the bank. DSC stated that the failure of MSB demonstrates why
stringent supervisory attention is necessary for de novo institutions. DSC has extended
its supervisory program so that these institutions receive a full-scope examination every
year for 7 years, as opposed to 3 years. De novo business plans are being closely
monitored against approved financial projections throughout the 7-year period. A
Financial Institution Letter issued in August 2009 describes the program changes for de
novo institutions and warns that changes in business plans undertaken without required
prior notice may subject an institution or its insiders to civil money penalties.




                                            II-1
